TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Actions Are Being Taken to Address the
                      Impact That International Financial
                     Reporting Standards Will Have on Tax
                                Administration



                                       September 8, 2010

                              Reference Number: 2010-30-112




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 HIGHLIGHTS


ACTIONS ARE BEING TAKEN TO                           WHAT TIGTA FOUND
ADDRESS THE IMPACT THAT
                                                     The IRS is in the process of providing
INTERNATIONAL FINANCIAL                              awareness training to IRS employees and
REPORTING STANDARDS WILL HAVE                        managers by introducing them to IFRS concepts
ON TAX ADMINISTRATION                                and potential issues. It also is providing
                                                     technical advice and guidance to employees
                                                     conducting examinations of returns filed based
Highlights                                           on the IFRS.

Final Report issued on September 8,                  The IRS appropriately coordinated with the tax
2010                                                 practitioner community to outline IFRS
                                                     implementation concerns. In addition, the IRS is
                                                     in the process of developing procedures to
Highlights of Reference Number: 2010-30-112
                                                     address significant issues related to IFRS.
to the Internal Revenue Service Commissioner
for the Large and Mid-Size Business Division.        WHAT TIGTA RECOMMENDED
IMPACT ON TAXPAYERS                                  Although TIGTA made no recommendations in
                                                     this report, IRS officials were provided an
One of the Internal Revenue Service’s (IRS)
                                                     opportunity to review the draft report. IRS
goals from its Strategic Plan for 2009-2013 is to
                                                     management did not provide any report
enforce the law to ensure everyone meets their
                                                     comments.
obligation to pay taxes. The Large and
Mid-Size Business Division’s Strategic Initiatives
and Fiscal Year 2009 Priorities also included
developing a Servicewide strategy to address
the consequences of the expected conversion to
the International Financial Reporting Standards
(IFRS). The IRS is positioning itself to address
the impact that the IFRS will have on tax
administration and the taxpayer.
WHY TIGTA DID THE AUDIT
The Large and Mid-Size Business Division’s
Strategic Initiatives and Fiscal Year 2009
Priorities included engaging with tax
professionals who provide tax advice on
international administrative, technical, and
information reporting matters. As part of this
strategic initiative, the Large and Mid-Size
Business Division planned to identify and
monitor emerging issues related to the adoption
of the IFRS. This audit was initiated as part of
the Fiscal Year 2010 Annual Audit Plan and
addresses the major management challenge of
Globalization. The overall objective of this
review was to assess the IRS’ progress to
prepare for the tax issues and implications of
converting from United States Generally
Accepted Accounting Principles to the IFRS.
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                September 8, 2010


 MEMORANDUM FOR COMMISSIONER, LARGE AND MID-SIZE BUSINESS DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Actions Are Being Taken to Address the Impact
                               That International Financial Reporting Standards Will Have on Tax
                               Administration (Audit # 201030040)

 This report presents the results of our review to assess the Internal Revenue Service’s progress to
 prepare for the tax issues and implications of converting from United States Generally Accepted
 Accounting Principles1 to International Financial Reporting Standards.2 This audit was
 conducted as part of our Fiscal Year 2010 Annual Audit Plan and addresses the major
 management challenge of Globalization.
 Although we made no recommendations in this report, we did provide Internal Revenue Service
 officials an opportunity to review the draft report. Management did not provide us with any
 report comments.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report findings. Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg,
 Assistant Inspector General for Audit (Compliance and Enforcement Operations), at
 (202) 622-8510.




 1
   Generally Accepted Accounting Principles are a set of standards and procedures used by companies to prepare and
 report financial information.
 2
   International Financial Reporting Standards are a set of accounting standards used in more than 100 countries that
 serve as a framework for financial reporting.
                                  Actions Are Being Taken to Address the Impact
                                  That International Financial Reporting Standards
                                          Will Have on Tax Administration




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Internal Revenue Service Employees Are Being Provided With
          International Financial Reporting Standards Awareness Training
          and Guidance ................................................................................................ Page 4
          The Internal Revenue Service Appropriately Coordinated With the
          Tax Practitioner Community to Outline International Financial
          Reporting Standards Implementation Concerns ........................................... Page 5
          Procedures Are Being Developed to Address Issues Related to the
          International Financial Reporting Standards ................................................ Page 6

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 7
          Appendix II – Major Contributors to This Report ........................................ Page 9
          Appendix III – Report Distribution List ....................................................... Page 10
       Actions Are Being Taken to Address the Impact
       That International Financial Reporting Standards
               Will Have on Tax Administration




                Abbreviations

GAAP      Generally Accepted Accounting Principles
IFRS      International Financial Reporting Standards
IRS       Internal Revenue Service
LMSB      Large and Mid-Size Business
SEC       Securities and Exchange Commission
U.S.      United States
                              Actions Are Being Taken to Address the Impact
                              That International Financial Reporting Standards
                                      Will Have on Tax Administration




                                             Background

International Financial Reporting Standards (IFRS), which are issued by the International
Accounting Standards Board,1 are a set of accounting standards that serve as a framework for
financial reporting. The IFRS are rapidly gaining worldwide acceptance and are now used for
public reporting purposes in more than 100 countries, including member countries of the
European Union, Hong Kong, Australia, India, and Russia.
In November 2008, the Securities and Exchange Commission (SEC)2 proposed a “Roadmap”
that would potentially require United States (U.S.) domestic issuers of annual reports to the SEC
to use the IFRS. U.S. domestic issuers currently prepare
financial statements in accordance with U.S. Generally
                                                               The SEC established several
Accepted Accounting Principles (GAAP)3 as established           milestones that, if achieved,
by the Financial Accounting Standards Board.4 In                could lead to the mandatory
comparing the two sets of standards, the IFRS differs           use of the IFRS in Calendar
from U.S. GAAP in a number of areas. For example, as             Year 2015 at the earliest.
identified by the Internal Revenue Service (IRS), U.S.
GAAP are rules-based, consider historical cost, provide
specific guidance, focus on application, and place emphasis on form. In contrast, the IFRS are
principles-based, consider value, provide general guidance, focus on results, and place emphasis
on substance.
As capital markets become increasingly global, U.S. investors have a corresponding increase in
international investment opportunities. In this environment, the SEC believes that U.S. investors
would benefit from an enhanced ability to compare financial information of U.S. companies with
that of non-U.S. companies. The SEC has long expressed its support for a single set of
high-quality global accounting standards as an important means of enhancing this comparability.
The SEC believes the IFRS have the potential to best provide the common platform on which
companies can report and investors can compare financial information.
The SEC proposed the “Roadmap” as part of its consideration of the role a single set of
high-quality accounting standards plays in investor protection and the efficiency and

1
  The International Accounting Standards Board, an independent, privately funded organization, is responsible for
developing the IFRS and promoting the use and application of these standards.
2
  The SEC’s mission is to protect investors; maintain fair, orderly, and efficient markets; and facilitate capital
formation. The SEC requires public companies to disclose meaningful financial and other information to the public.
3
  The GAAP are a set of standards and procedures used by companies to prepare and report financial information.
4
  The Financial Accounting Standards Board, a private, not for profit organization, was established in 1973 and was
designated by the SEC as the organization responsible for setting standards of accounting that govern preparation of
financial reports by publicly held companies in the U.S.
                                                                                                            Page 1
                              Actions Are Being Taken to Address the Impact
                              That International Financial Reporting Standards
                                      Will Have on Tax Administration



effectiveness of capital formation and allocation. The “Roadmap” sets forth several milestones
that, if achieved, could lead to the mandatory use of the IFRS by U.S. issuers in their filings with
the SEC in Calendar Year 2015 at the earliest. The SEC will make its determination in 2011
based on whether the requirement to use the IFRS is in the public interest and for the protection
of investors. The milestones to be achieved include:
    •    Improvements in accounting standards.
    •    Accountability and funding of the International Accounting Standards Committee
         Foundation.5
    •    Improvement in the ability to use interactive data for IFRS reporting.
    •    Education and training related to the IFRS.
    •    Anticipated timing of future rulemaking by the SEC.
    •    Implementation of the mandatory use of the IFRS by U.S. issuers.
In 2007, the SEC removed the requirement for non-U.S. companies reporting financial results
using the IFRS to reconcile to U.S. GAAP. This rule became effective for periods ending after
November 15, 2007.
In a related matter, the International Accounting Standards Board and Financial Accounting
Standards Board have embarked on a joint project to develop an improved common conceptual
framework that provides a sound foundation for developing future accounting standards. Such a
framework is essential to fulfilling the goal of both Boards to develop standards that are
principles-based, internally consistent, internationally converged, and that lead to financial
reporting that provides the information that investors need to make decisions in their capacity as
capital providers. The new framework, which will deal with a wide range of issues, will build on
the existing frameworks of both Boards and consider developments subsequent to the issuance of
the conceptual framework.
The IRS’ Large and Mid-Size Business (LMSB) Division developed a Servicewide Approach to
International Tax Administration6 that identifies its Strategic Initiatives and Fiscal Year 2009
Priorities. The LMSB Division’s approach to international tax administration follows the IRS
Strategic Plan for 2009-2013. In relation to the IRS’ goal to enforce the law to ensure everyone
meets their obligation to pay taxes, the LMSB Division’s Strategic Initiatives and Fiscal
Year 2009 Priorities included engaging with tax professionals who provide international tax
advice on international administrative, technical, and information reporting matters. As part of


5
  The International Accounting Standards Committee Foundation is the parent entity of the International Accounting
Standards Board and is an independent, not-for-profit, private sector organization working to develop a single set of
high quality, understandable, enforceable, and globally accepted International Financial Reporting Standards.
6
  Revision 3, dated April 10, 2009.
                                                                                                             Page 2
                         Actions Are Being Taken to Address the Impact
                         That International Financial Reporting Standards
                                 Will Have on Tax Administration



this strategic initiative, the LMSB Division planned to identify and monitor emerging issues
relating to adoption of the IFRS. The LMSB Division’s Strategic Initiatives and Fiscal
Year 2009 Priorities also included developing a Servicewide strategy to address the
consequences of the expected change to the IFRS.
In early 2009, the LMSB Division began developing plans for strategic and operational activities
relating to adoption of the IFRS. It identified that a multi-functional working group, referred to
as the IFRS Team, led by the Director of Pre-Filing and Technical Guidance, LSMB Division,
would plan and monitor the ongoing activities. Currently, the Pre-Filing and Technical
Guidance office maintains an IFRS Technical Guidance Web Site that identifies contacts for the
IFRS Team and provides resources related to IFRS accounting and procedures. In terms of
training, audit tools, and reference materials, agents are expected to rely on the IFRS Team’s
technical advisors for case specific guidance until written procedures are provided.
This review was performed at the IRS National Headquarters and the LMSB Division’s
Pre-Filing and Technical Guidance office in Washington, D.C., and at Pre-Filing and Technical
Guidance’s Financial Accounting Issues office in New Haven, Connecticut, during the period
March through June 2010. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                            Page 3
                                Actions Are Being Taken to Address the Impact
                                That International Financial Reporting Standards
                                        Will Have on Tax Administration




                                        Results of Review

Internal Revenue Service Employees Are Being Provided With
International Financial Reporting Standards Awareness Training and
Guidance
The existing focus of the IRS’ IFRS Team is to provide awareness training to IRS employees and
managers by introducing them to IFRS concepts and potential issues. The Team is conveying
that some companies71are already filing returns that were prepared based on the IFRS. As part of
the awareness training, employees are encouraged to contact the IFRS Team when conducting an
examination of an IFRS-related return. This practice will enable the IFRS Team’s technical
advisors to provide advice and identify issues that need to be addressed. Because employees are
not required to contact the IFRS Team, the Team has also taken a proactive approach to getting
involved and providing guidance by identifying current examinations of IFRS-related returns and
contacting the related managers. We reviewed documentation indicating the IFRS Team has
given more than 20 presentations on the IFRS to IRS employees since September 2008. The
IFRS Team has plans to continue making presentations and holding workshops into Fiscal
Year 2011. In addition, the IFRS Team will record pertinent training sessions and post the
sessions on a training web site for employees to download and review.
The IFRS Team created a general presentation, identified as IFRS 101, that provides information
on:
       •    IFRS background.
       •    IFRS usage by other countries.
       •    The potential SEC decision to convert to the IFRS in the U.S.
       •    Joint Financial Accounting Standards Board and International Accounting Standards
            Board convergence efforts to resolve key differences.
       •    Major differences between U.S. GAAP and the IFRS.
       •    Audit techniques.
       •    Resources for obtaining additional IFRS information.




71
     The IFRS Team determined that approximately 220 companies are currently filing returns using the IFRS.
                                                                                                              Page 4
                             Actions Are Being Taken to Address the Impact
                             That International Financial Reporting Standards
                                     Will Have on Tax Administration



The presentations are modified to ensure pertinent information is shared with various and/or
specific audiences. During this review, we attended two presentations and found the information
provided was tailored for each audience. For example, the presentation given to a group of
international examiners provided in-depth information on the significant subject matter
differences between U.S. GAAP and the IFRS, while the presentation given to the Issue Focus
Group only briefly touched on these differences.

The Internal Revenue Service Appropriately Coordinated With the Tax
Practitioner Community to Outline International Financial Reporting
Standards Implementation Concerns
During the early stages of developing plans for strategic and operational activities relating to the
IFRS conversion, the IFRS Team reached out to several external stakeholders for their assistance
in identifying and outlining IFRS implementation concerns. External stakeholders included the
American Institute of Certified Public Accountants, the Big Four,82large regional accounting
firms, and firms associated with the Dow Jones Industrial Average.93 The IRS held several
teleconferences with the stakeholders and obtained insight on issues potentially affecting the tax
community. As a result, various areas of concern were identified that could affect U.S. tax
reporting. To further delve into areas of concern, the IRS held separate roundtable discussions
with the stakeholders and formed breakout groups to identify potential tax form, publication, and
legal issues. The IFRS Team Manager informed us that he does not expect many changes to tax
forms or publications, but indicated they will continue to evaluate the need for changes. Since
the roundtables were held, the IFRS Team has continued their effort to identify areas of concern.
In addition to the teleconferences and roundtables, the IFRS Team indicated they have given
several external presentations and participated on panels with tax professionals. The IFRS Team
is currently in the process of gathering information that will assist them in solidifying issues
related to IFRS implementation. As issues are solidified and guidance is developed, the IFRS
Team will present updated information to the tax community by continuing to engage in external
presentations with tax professionals and taxpayer groups. The IFRS Team will also post
additional guidance for the tax community to their web site.
In a related matter, the IFRS Team has also had limited indirect contact with taxpayers. The
IFRS Team is responsible for monitoring events in the field to provide their guidance and to
facilitate the IRS Chief Counsel’s guidance for tax issues that arise. When the IFRS Team’s
technical advisors become involved with existing cases, various activities occur. Specifically, on
many occasions, they receive telephone calls where they provide quick answers to the field

82
   The Big Four is the reference for the four largest international accountancy and professional service firms –
PricewaterhouseCoopers, Deloitte Touche Tohmatsu, Ernst & Young, and KPMG.
93
   The Dow Jones Industrial Average is an index that shows how 30 large, publicly owned companies, based in the
U.S., have performed during a standard trading session in the stock market.
                                                                                                          Page 5
                              Actions Are Being Taken to Address the Impact
                              That International Financial Reporting Standards
                                      Will Have on Tax Administration



employees. In other instances, where the substance of the contacts requires greater attention, the
technical advisors make visits to the field sites on these cases. The IFRS Team Manager
indicated to us that these case visits are learning experiences for the employee, technical
advisors, and also for the taxpayers being audited.

Procedures Are Being Developed to Address Issues Related to the
International Financial Reporting Standards
The IFRS Team is currently overseeing an Issue Focus Group that is addressing issues related to
IFRS conversion efforts. The Group consists of the IFRS Team’s technical advisors and subject
matter experts within the IRS who have been selected to review, in relation to specific
issues/topics, the differences between U.S. GAAP and the IFRS. The Group will be responsible
for creating guidance, by topic, which will serve as audit aids for IRS employees who conduct
examinations of tax returns. The Treasury Inspector General for Tax Administration plans to
review the guidance and procedures once the IRS has fully implemented them. The IFRS Team
designed a standardized template to assist the Group in creating the audit aids and to ensure
consistency in format. The template identifies the sections of information that must be included,
as well as the order in which they are to be presented. The required sections include an overview
of the issue/topic, a description of the related standards under U.S. GAAP and the IFRS,
differences between the standards, the related U.S. tax implications, and suggested audit
techniques. Once the audit aids are completed,104the IFRS Team will consolidate the guidance
into a collective summary referred to as the Issue Matrix Audit Technique Tool.115 This Tool will
provide IRS employees with a single source of information for handling significant issues related
to the IFRS.




104
    The audit aids for some issues are scheduled for completion by August 31, 2010. Completion of other audit
aids will take longer for those issues that are more complex or that are subject to change due to convergence efforts
of the Financial Accounting Standards Board and the International Accounting Standards Board.
115
    The Issue Matrix Audit Technique Tool is scheduled for completion by August 31, 2011.
                                                                                                              Page 6
                              Actions Are Being Taken to Address the Impact
                              That International Financial Reporting Standards
                                      Will Have on Tax Administration



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the IRS’ progress to prepare for the tax issues
and implications of converting from U.S. GAAP1 to the IFRS.2 To accomplish this objective,
we:
I.      Identified the actions taken or planned to be taken by the IRS to prepare and train
        employees to handle changes resulting from conversion to the IFRS.
        A. Interviewed IRS management.
        B. Identified and reviewed related training documentation and evaluated the content.
II.     Identified the actions taken or planned to be taken by the IRS to establish and/or revise
        procedures to correspond with changes resulting from conversion to the IFRS.
        A. Interviewed IRS management.
        B. Identified and reviewed related procedural documentation and evaluated the content.
III.    Identified the actions taken or planned to be taken by the IRS to provide information and
        support to the taxpayer community (taxpayers and representatives) to handle changes
        resulting from conversion to the IFRS.
        A. Interviewed IRS management.
        B. Identified and reviewed documentation created to provide guidance to the taxpayer
           community on conversion to the IFRS.
IV.     Identified the actions taken or planned to be taken by the IRS to create and/or revise tax
        forms and instructions to correspond with changes resulting from conversion to the IFRS.
        A. Interviewed IRS management.
        B. Identified and reviewed related documentation and evaluated the content.
V.      Identified the actions taken by the IRS to address the impact of the SEC’s removal of the
        requirement for non-U.S. companies reporting financial results using the IFRS to
        reconcile to U.S. GAAP.


1
  The GAAP are a set of standards and procedures used by companies to prepare and report financial information.
2
  The IFRS are a set of accounting standards used in more than 100 countries that serve as a framework for financial
reporting.
                                                                                                            Page 7
                         Actions Are Being Taken to Address the Impact
                         That International Financial Reporting Standards
                                 Will Have on Tax Administration



       A. Interviewed IRS management.
       B. Reviewed related documentation.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: sound project management guidelines for
planning, executing, monitoring, and controlling project activities. We evaluated these controls
by interviewing management and reviewing project documentation.




                                                                                          Page 8
                       Actions Are Being Taken to Address the Impact
                       That International Financial Reporting Standards
                               Will Have on Tax Administration



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Amy L. Coleman, Audit Manager
Todd M. Anderson, Lead Auditor
Stanley M. Pinkston, Senior Auditor
Melvin V. Thomas, Senior Program Analyst




                                                                                      Page 9
                        Actions Are Being Taken to Address the Impact
                        That International Financial Reporting Standards
                                Will Have on Tax Administration



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, International SE:LM:IN
Director, Pre-Filing and Technical Guidance, Large and Mid-Size Business Division
SE:LM:PFTG
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Small Business and Self-Employed Division SE:SE




                                                                                    Page 10
